No. 20-569
Iu the Supreme Court of the United States

ELIM ROMANIAN PENTECOSTAL CHURCH and
LoGos BAPTIST MINISTRIES, Petitioners,

ve

JAY ROBERT PRITZKER,
in his official capacity as Governor of the State of Illinois, Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Seventh Circuit

CERTIFICATE OF SERVICE

I, Jane Elinor Notz, a member of the Bar of this Court, certify that on February 16,
2021, I emailed a copy of the BRIEF IN OPPOSITION FOR RESPONDENT in the
above entitled case to all parties required to be served, and who consented to
electronic service only, pursuant to this Court’s order of April 15, 2020, strongly
encouraging electronic service when feasible. Those emails were addressed to the
following:

Daniel Joseph Schmid Mathew D. Staver
dschmid@lc.org court@lc.org

   

Gs QUAt S\i nop th
he Elinor Notz

00 West Randolph Street
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
Counsel for Respondent

 
